<html>
<title></title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                                 

                         [H.A.S.C. No. 116-25]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2020

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                         FULL COMMITTEE HEARING

                                   ON

                               MEMBER DAY

                               __________

                              HEARING HELD

                             APRIL 3, 2019


                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
36-899                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------

                                     
                      COMMITTEE ON ARMED SERVICES
                      
                      
                     One Hundred Sixteenth Congress

                    ADAM SMITH, Washington, Chairman

SUSAN A. DAVIS, California           WILLIAM M. ``MAC'' THORNBERRY, 
JAMES R. LANGEVIN, Rhode Island          Texas
RICK LARSEN, Washington              JOE WILSON, South Carolina
JIM COOPER, Tennessee                ROB BISHOP, Utah
JOE COURTNEY, Connecticut            MICHAEL R. TURNER, Ohio
JOHN GARAMENDI, California           MIKE ROGERS, Alabama
JACKIE SPEIER, California            K. MICHAEL CONAWAY, Texas
TULSI GABBARD, Hawaii                DOUG LAMBORN, Colorado
DONALD NORCROSS, New Jersey          ROBERT J. WITTMAN, Virginia
RUBEN GALLEGO, Arizona               VICKY HARTZLER, Missouri
SETH MOULTON, Massachusetts          AUSTIN SCOTT, Georgia
SALUD O. CARBAJAL, California        MO BROOKS, Alabama
ANTHONY G. BROWN, Maryland, Vice     PAUL COOK, California
    Chair                            BRADLEY BYRNE, Alabama
RO KHANNA, California                SAM GRAVES, Missouri
WILLIAM R. KEATING, Massachusetts    ELISE M. STEFANIK, New York
FILEMON VELA, Texas                  SCOTT DesJARLAIS, Tennessee
ANDY KIM, New Jersey                 RALPH LEE ABRAHAM, Louisiana
KENDRA S. HORN, Oklahoma             TRENT KELLY, Mississippi
GILBERT RAY CISNEROS, Jr.,           MIKE GALLAGHER, Wisconsin
    California                       MATT GAETZ, Florida
CHRISSY HOULAHAN, Pennsylvania       DON BACON, Nebraska
JASON CROW, Colorado                 JIM BANKS, Indiana
XOCHITL TORRES SMALL, New Mexico     LIZ CHENEY, Wyoming
ELISSA SLOTKIN, Michigan             PAUL MITCHELL, Michigan
MIKIE SHERRILL, New Jersey           JACK BERGMAN, Michigan
KATIE HILL, California               MICHAEL WALTZ, Florida
VERONICA ESCOBAR, Texas
DEBRA A. HAALAND, New Mexico
JARED F. GOLDEN, Maine
LORI TRAHAN, Massachusetts
ELAINE G. LURIA, Virginia

                     Paul Arcangeli, Staff Director
                Sapna Sharma, Professional Staff Member
                          Justin Lynch, Clerk
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Case, Hon. Ed, a Representative from Hawaii......................     1
Cunningham, Hon. Joe, a Representative from South Carolina.......     4
Green, Hon. Mark E., a Representative from Tennessee.............     3
Kilmer, Hon. Derek, a Representative from Washington.............     5
Rose, Hon. Max, a Representative from New York...................    10
San Nicolas, Hon. Michael F.Q., a Delegate from Guam.............    11
Takano, Hon. Mark, a Representative from California..............     6
Thompson, Hon. Glenn, a Representative from Pennsylvania.........     8

                                APPENDIX

Prepared Statements:

    Case, Hon. Ed................................................    19
    Cunningham, Hon. Joe.........................................    24
    Green, Hon. Mark E...........................................    22
    Kilmer, Hon. Derek...........................................    26
    Rose, Hon. Max...............................................    35
    San Nicolas, Hon. Michael F.Q................................    37
    Takano, Hon. Mark............................................    29
    Thompson, Hon. Glenn.........................................    33

Documents Submitted for the Record:

    Brownley, Hon. Julia, a Representative from California.......    41
    Castor, Hon. Kathy,, a Representative from Florida...........    43
    Cicilline, Hon. David N., a Representative from Rhode Island.    45
    Cuellar, Hon. Henry, a Representative from Texas.............    47
    Himes, Hon. James A., a Representative from Connecticut......    48
    Jayapal, Hon. Pramila, a Representative from Washington......    49
    Kinzinger, Hon. Adam, a Representative from Illinois.........    51
    Lesko, Hon. Debbie, a Representative from Arizona............    57
    Lieu, Hon. Ted, a Representative from California.............    58
    Lipinski, Hon. Daniel, a Representative from Illinois........    61
    Maloney, Hon. Sean Patrick, a Representative from New York...    62
    McEachin, Hon. A. Donald, a Representative from Virginia.....    65
    McKinley, Hon. David B., a Representative from West Virginia.    67
    Moore, Hon. Gwen, a Representative from Wisconsin............    71
    Olson, Hon. Pete, a Representative from Texas................    67
    Rodgers, Hon. Cathy McMorris, a Representative from 
      Washington.................................................    67
    Ruppersberger, Hon. C.A. Dutch, a Representative from 
      Maryland...................................................    74
    Schrader, Hon. Kurt, a Representative from Oregon............    76
    Velazquez, Hon. Nydia M., a Representative from New York.....    77
    Young, Hon. Don, a Representative from Alaska................    83

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
                               
.                               
                               MEMBER DAY

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                          Washington, DC, Wednesday, April 3, 2019.
    The committee met, pursuant to call, at 9:00 a.m., in room 
2118, Rayburn House Office Building, Hon. Adam Smith (chairman 
of the committee) presiding.
    Chairman Smith. Good morning. We will come to order.
    To begin with, I have to ask for unanimous consent that all 
Members' written statements will be made part of the record. 
The committee has received 10 statements for the record in 
addition to our colleagues who are here in person. Without, 
objection so ordered.
    So, welcome to this Members' Day. We will hear from other 
Members of the caucus on what their priorities are. You each 
will have 4 minutes and we will ask questions. I think it is 
okay. We will just have them all go and then ask questions at 
the end.
    And we will go left to right, and start with Mr. Case.

    STATEMENT OF HON. ED CASE, A REPRESENTATIVE FROM HAWAII

    Mr. Case. Chair Smith, Ranking Member Thornberry, 
distinguished members of the committee, thank you very much for 
the opportunity to testify today on this year's National 
Defense Authorization Act [NDAA]. And I do so representing 
Hawaii, a proud partner in the Indo-Pacific.
    And to put this in perspective, if you get on a plane today 
and fly to Hawaii, that is 5,000 miles; if you get on a plane 
then and fly from Hawaii to Beijing, that is another 5,000 
miles. So that would give you a sense of not only the distances 
that we are talking about in the Indo-Pacific, but the 
placement of Hawaii. So in Hawaii we live and breathe the 
Pacific, always have and always will.
    The National Security Strategy and National Defense 
Strategy affirmed the reemergence of long-term strategic 
competition with other great powers as a central challenge to 
our national security.
    I think most of us can now agree that no country poses as 
significant or long-term challenge and threat to us as does 
China. Thus the NDAA as our annual blueprint for the Department 
of Defense and our military should reflect the strategic 
interest that the U.S. has in the Indo-Pacific region generally 
and China specifically.
    Our goal as summarized by this administration's free and 
open Indo-Pacific strategy with which I generally agree is to 
peacefully address China's rise and bring it into the existing 
regional architecture of free and open navigation, 
interconnected trade and development, security cooperation and 
international institutions.
    The purpose of a strong military posture in the Indo-
Pacific is not to seek conflict or escalate competition with 
China, but to raise the costs and international consequences of 
Chinese aggression and reassure allies and partners of our 
engagement in this critical region.
    The U.S. Indo-Pacific Command, INDOPACOM, headquartered in 
Hawaii is charged with addressing our military challenges in 
the Indo-Pacific. It is the largest combatant command in terms 
of areas of responsibility and assets, stretching from the west 
coast of the United States mainland to the west coast of India. 
But it requires additional resources.
    Reports of forces in the region being overworked from high 
demand and struggling with readiness from deferred maintenance 
are simply unacceptable.
    This year's NDAA should continue a long-term strategy for 
INDOPACOM to reach its goals in deployed forces and readiness 
especially in air and naval assets. We need to continue 
supporting improvements in doctrine, assets, and technology to 
counter China's aggressive military and soft power buildup. I 
urge the committee to continue investing in research and 
development of these technologies to address these risks.
    Hawaii is of particular importance to our Indo-Pacific 
strategy. Hawaii offers an indispensable forward position in 
the Pacific, is home to INDOPACOM headquarters and commands for 
every service, and maintains a large military presence. We need 
increased investment in our military construction needs there, 
including the Hawaii Infrastructure Readiness Initiative, our 
shipyard and training ranges to improve our readiness in the 
Indo-Pacific.
    Even with increased investment in improving our military 
posture in the Indo-Pacific, the U.S. cannot do it alone in the 
region. Peacefully integrating China into the existing rules-
based regional order requires the active cooperation of partner 
countries, the vast geographic space that needs to be covered 
in the Indo-Pacific demands reliance on our allies there.
    We need to reassure our traditional treaty allies such as 
Japan, South Korea, Australia, the Philippines, and Thailand 
while building relationships with partners and potential 
partners like India and Vietnam.
    I also want to ask that this committee pays special 
attention to the Pacific Island countries such as Vanuatu, the 
Federated States of Micronesia, and Palau to name only a few. 
They are critical to our overall posture in the Pacific and 
simply need much more attention from both a military and a 
State Department foreign aid perspective for our overall 
strategy.
    In conclusion, I urge this committee to ensure this year's 
NDAA reflects the strategic importance of Hawaii and the entire 
Indo-Pacific. We must enhance our military posture there and 
continue building alliances and partnerships in the region.
    Thank you for your consideration and hard work in advancing 
our country's national security.
    [The prepared statement of Mr. Case can be found in the 
Appendix on page 19.]
    Chairman Smith. Thank you. Mr. Green.

    STATEMENT OF HON. MARK E. GREEN, A REPRESENTATIVE FROM 
                           TENNESSEE

    Mr. Green. Thank you, Mr. Chairman Smith and Ranking Member 
Thornberry, members of the committee. Thanks for the 
opportunity to testify today.
    Over several years prior to the current administration, the 
combination of sequestration and other cuts to DOD [Department 
of Defense] coupled with the ongoing fight against terrorism 
forced the military to prioritize readiness over some facility 
maintenance.
    I am here to provide an innovative solution that will work 
to keep both sides of the aisle happy, deliver increased 
efficiency in the use of defense dollars, and ultimately 
strengthen our military's capability for success in combat and 
greater deterrence during peace.
    Clearly we need to make numerous repairs to installation 
facilities, and I am very glad that this committee has shown 
the commitment to improvement by increasing defense spending 
over the past few years. That brings me to my concern with 
Davis-Bacon laws hampering DOD's spending effectiveness.
    Davis-Bacon requires a Federal construction contract to pay 
at least the prevailing wage that construction workers in the 
area are earning on private contracts. Davis-Bacon requires on 
military construction and maintenance costs causes those 
contracts to pay an additional 20 percent higher wages than 
market rates according to Bacon-Hill study group.
    These costs take dollars from other projects and limit the 
effective use of military construction dollars. In the near 
future, I will bring forward an amendment to allow a temporary 
exemption, temporary exemption, from Davis-Bacon for those 
military construction projects in States where there is no 
living wage requirement. In those States which require a living 
wage, Davis-Bacon would not be waived.
    We don't have time to spare. The Marine Corps' Camp Lejeune 
is still broken as you know. Tyndall Air Force Base is 
struggling of course from Hurricane Michael still. And we need 
to build more capabilities for new projects as our military 
evolves to face a changing, expanding, and competitive 
environment.
    Soldiers, sailors, airmen, Marines rely on home station 
facilities to refit for more and to retrain for future fights. 
We must house, refit, train our troops in a way that makes 
their competiveness unquestionable.
    When I went to combat, Mr. Chairman, 15 years ago, it 
wasn't a fair fight. No American son or daughter should ever go 
to combat and it be a fair fight. We need to make every dollar 
spent on defense and specifically these construction projects 
as efficient as possible. That is why I am proposing that in 
those States where there is no living wage requirement, we 
waive Davis-Bacon for a temporary period of time to allow for 
the most efficient use of those construction dollars.
    Thank you, and I yield back my time.
    [The prepared statement of Mr. Green can be found in the 
Appendix on page 22.]

 STATEMENT OF HON. JOE CUNNINGHAM, A REPRESENTATIVE FROM SOUTH 
                            CAROLINA

    Mr. Cunningham. Thank you, Mr. Chairman, Ranking Member 
Thornberry, and distinguished members of the committee. I also 
want to thank the committee's professional staff who keep 
everything moving behind the scenes and are the reason this 
bill has passed every year for nearly 60 years running.
    Our district is home to over 10,000 Active Duty service 
members who serve aboard Marine Corps Air Station [MCAS] 
Beaufort, Parris Island, Beaufort Naval Hospital, and Joint 
Base Charleston.
    I am here today to advocate for these installations not 
only because they are critical to our national security, but 
also because they are an indispensable part of our economy in 
the Lowcountry. In the Beaufort area alone it is estimated that 
these installations have an economic impact of over $2 billion 
annually and support nearly 20,000 jobs.
    MCAS Beaufort houses several of the Marine Corps F-18 
squadrons, and it is the only place in the world where pilots 
are trained to fly F-35Bs.
    As our adversaries continue to advance their own next-
generation fighters and missile systems, it is imperative we 
expedite production of this aircraft and maintain our dominance 
in the skies. This is why I urge the committee's continued 
support for the F-35 program in this year's NDAA.
    On Parris Island, Marine Corps drill instructors work 
brutal hours every day of the year to transform young men and 
women into United States Marines. As one of two training depots 
that make Marines and the only depot that trains women, Parris 
Island is a pillar of our national security apparatus. This is 
why it is essential that we provide the depot funding they need 
to modernize the island's firing ranges.
    In the Marine Corps unfunded priority list, they requested 
additional resources to upgrade the Chosin Range, so recruits 
can continue to learn the fundamentals of marksmanship in a 
safe environment.
    I respectfully request the committee support this proposal 
so that Parris Island can continue to prepare our best and 
brightest to win our nation's battles in service to the 
country.
    Finally, I want to take a moment to discuss an issue that 
threatens nearly every base in our district and many of the 
bases in some of your districts as well, that is sea-level rise 
and climate change.
    Parris Island and MCAS Beaufort already experience regular 
flooding, and by 2050 it is estimated that they could be under 
water nearly a third of the year.
    Last year, this committee made important first steps 
towards addressing this growing threat by authorizing a new 
defense infrastructure program and expanding the Department's 
authority to improve roads near bases that are impacted by 
recurrent flooding.
    I strongly urge the members of this committee to continue 
to prioritize climate resiliency and that service members in 
the Lowcountry can continue to do what they do best.
    As you continue putting together this year's NDAA, I look 
forward to working with each and every one of you on these 
issues. And I thank you for your time and consideration.
    [The prepared statement of Mr. Cunningham can be found in 
the Appendix on page 24.]
    Chairman Smith. Thank you. Mr. Kilmer.

     STATEMENT OF HON. DEREK KILMER, A REPRESENTATIVE FROM 
                           WASHINGTON

    Mr. Kilmer. Thank you, Mr. Chair. And I want to thank you 
and the ranking member for holding this Member Day.
    I represent Washington State's Sixth District which is home 
to 11 federally recognized tribes. And as you know, Native 
American tribes have unique status that entitles them to a 
special government-to-government relationship with the United 
States based on their federally recognized status as sovereign 
nations.
    Many of these tribes entered into treaties with the Federal 
Government that guaranteed certain rights and outlined the 
commitments made by our government. And treaties are the 
supreme law of the land; treaty rights held by a tribe cannot 
be diminished by the passage of time or by non-use.
    When any Federal executive agency or department including 
the Department of Defense proposes a project, it needs to 
engage in formal government-to-government consultation with any 
tribe that may be impacted by that project.
    Now I also represent Naval Base Kitsap which is located on 
the Hood Canal where five distinct tribes have treaty-reserved 
rights to access their usual and accustomed fishing grounds. 
Naval Base Kitsap had had several important military 
construction projects in recent years. We have a shipyard that 
works on nuclear ships and a sub base that loads nuclear 
submarines, so dry-dock improvement and a new explosive-
handling wharf are just a few examples of projects that are 
vital to the Navy's mission, to the security of the work being 
done, and to our national security.
    So, having said that, every time a Navy construction 
project such as a dock or a pier involves a water interface, it 
likely has an impact to a treaty right.
    In many cases, those impacts are first identified as part 
of the process mandated under the National Environmental Policy 
Act [NEPA] specifically when the Navy drafts an environmental 
impact statement [EIS] for a planned activity. But 
unfortunately, when project plans have developed to that point 
and impacts to tribal treaty rights are identified that late in 
the game, it is often very difficult and sometimes impossible 
to develop meaningful project alterations to mitigate the 
impact to the treaty-reserved rights.
    So, to address that shortcoming, I believe that the 
consultation process should start well before the NEPA process 
and the issuance of a draft EIS for public comment.
    I believe that a tribal consultation requirement and 
certification should be incorporated to the DD Form 1391 
through which requirements and justifications in support of 
funding requests for DOD military construction are submitted to 
Congress. This would ensure that efforts have been taken to 
consult with the tribes early and that impacts to treaty-
reserved rights can be identified at the earliest stages of the 
project.
    That would assist in discussions between the DOD and the 
tribes on the next steps, which could involve alterations to 
the project to avoid the impact and or further consultations 
between the DOD and tribes to possibly arrive at an acceptable 
mitigation to the impact to treaty-reserved rights.
    Should an impacted tribe decide to work with the DOD to 
develop an appropriate mitigation strategy to allow the project 
to move forward, I believe that the DOD should not limit itself 
to the mechanisms spelled out under the Sikes Act, which was 
intended only to mitigate for environmental damage.
    Impacts to treaty rights can't be equated to environmental 
impacts simply because those rights are tied to natural 
resources. In fact, treaty rights which have been guaranteed by 
legally binding documents is no different than any other form 
of property right.
    An environmental review may identify that a project costs 
the ability to harvest 100 shellfish for example, but that 
fails to address a treaty right that guarantees the right of 
someone's grandchildren's grandchildren to harvest those 
shellfish. So with that in mind the DOD should use any and all 
resources, not just the Sikes Act, at its disposal when 
entering into negotiations with the tribe regarding equitable 
mitigation.
    So I would appreciate your consideration of my request to 
include a provision in the NDAA to require tribal consultation 
requirement and certification on the DD Form 1391 and a 
provision noting that the committee recognizes that a treaty-
reserved right is no different than any property right.
    So my goal is twofold. One, to help to give the DOD and 
tribes one more tool so that they can increase the odds that 
they can successfully negotiate an outcome and allow projects 
to move forward without delay. And two, to ensure that DOD 
respects treaty rights and the self-determination of tribal 
governments.
    Thank you.
    [The prepared statement of Mr. Kilmer can be found in the 
Appendix on page 26.]
    Chairman Smith. Thank you all very much. I appreciate those 
perspectives.
    Does anyone have any questions for any of the witnesses?
    Thank you very much. I appreciate it.
    And I think we have Mr. Takano and Mr. Thompson are both 
here. You just can come forward and we can get started. There 
are two other people on the second panel, but we will get 
started and plug them in when they arrive.
    Thank you very much, and we will start with Mr. Takano. I 
apologize for moving you from the first panel to the second, I 
know you had another hearing this morning, but I appreciate 
your patience. And you are recognized.

STATEMENT OF HON. MARK TAKANO, A REPRESENTATIVE FROM CALIFORNIA

    Mr. Takano. It is my pleasure, Mr. Chairman. Thank you, 
Chairman Smith, Ranking Member Thornberry, and other members of 
the committee. I thank you for the opportunity to testify 
today.
    First, I am here to advocate for the Work for Warriors 
program. Work for Warriors was created to address the 
disproportionately higher unemployment rates among members of 
the National Guard and military spouses. The underlying model 
for this program connects with local businesses to identify job 
openings, seek out qualified and currently unemployed 
applicants, and help individuals to navigate the resume, 
interview, and hiring process.
    California has one of the largest Work for Warriors 
programs in the country, along with Nevada, South Carolina, and 
Washington State. The programs are also being developed in 
Florida, Tennessee, Colorado, North Carolina, and other States.
    My proposed language would create a national Work for 
Warriors pilot program that mirrors these State direct-to-
employment programs to provide direct job placement and related 
employment assistance to members of the National Guard and 
Reserve, as well as military spouses and veterans.
    A Work for Warriors provision has been included in the 
House NDAA every year since 2014. And I hope to continue the 
longstanding practice of this committee to support our veterans 
and members of the National Guard and Reserves by including 
this pilot program in NDAA.
    As chairman of the Veterans Affairs Committee, one of my 
top priorities is ensuring that our veterans have the resources 
they need to succeed.
    The Work for Warriors program has been extremely successful 
in my home State of California, and has placed more than 5,000 
individuals in jobs. The other States I have mentioned have 
enjoyed comparable success through this program.
    The Work for Warriors program job placement services 
provides a sense of stability, purpose, and continuity for 
those in the program. And we can deliver on this same 
successful model nationwide by creating a pilot program through 
the Department of Defense.
    Although successful Federal veterans employment initiatives 
can cost more than $10,000 per placement, Work for Warriors has 
a total per placement cost of roughly $1,100. This staggering 
difference is a testimony to the incredible value that a 
national Work for Warriors program could bring to countless 
National Guardsmen, reservists, and veterans.
    Now as we continue to seek out ways to improve outcomes and 
create new opportunities and provide adequate support and care 
for members of our armed services and veterans, we must 
recognize the programs that are successful and make appropriate 
investments to support those programs. Work for Warriors is a 
strong example of an investment that we should be rushing to 
make.
    Now I am also here to advocate for another important 
initiative, the Keith Nolan Air Force Deaf Demonstration 
program. This language would create an Air Force demonstration 
program for deaf and hard-of-hearing individuals to access as 
officers of the Air Force as long as they continue to meet all 
the other essential qualifications for accession as an officer 
in the Air Force.
    This provision is inspired by a deaf young man named Keith 
Nolan, a teacher at the Maryland School for the Deaf, who 
successfully completed two levels of Army ROTC [Reserve 
Officers' Training Corps]. Keith was preparing to take the next 
step when he was informed that he could not continue with his 
service because he is deaf.
    I have no doubt that the Air Force would have been 
strengthened by Keith's service. And we should not be so quick 
to turn away individuals who proudly look to serve. Individuals 
who want to serve should have the opportunity to do so. This 
demonstration program would give them the opportunity to serve 
the country they love.
    Now I am thankful that my amendment to create this program 
was included by the committee in last year's NDAA. And it is my 
sincere hope that it will be included again during this year's 
reauthorization. And I am excited that we are taking this step 
forward to give the deaf community a chance to defend the 
country that they love.
    I urge you to support the inclusion of both the Work for 
Warriors and the Keith Nolan Air Force Deaf Demonstration 
programs and I welcome the opportunity to answer any questions.
    And I yield back.
    [The prepared statement of Mr. Takano can be found in the 
Appendix on page 29.]
    Chairman Smith. Thank you. Mr. Thompson.

    STATEMENT OF HON. GLENN THOMPSON, A REPRESENTATIVE FROM 
                          PENNSYLVANIA

    Mr. Thompson. Chairman Smith, Ranking Member Thornberry, 
members of the Armed Services Committee, good morning and thank 
you for the opportunity to share my priorities for the fiscal 
year 2020 with the House Armed Services Committee.
    As a father of an Active soldier who received a Purple 
Heart during Operation Iraqi Freedom, I appreciate your 
willingness to receive my testimony. I recognize the challenges 
facing this committee and I appreciate your ongoing support for 
our service members.
    These brave Americans put their lives on the line regularly 
in the defense of a higher cause, so we have a responsibility 
to support them in the strongest, most responsible way 
possible.
    While I certainly understand that the Department of Defense 
has the best interest of our troops in mind, our oversight role 
is necessary that the Department stays on the right course.
    Specifically, the Army Corps of Engineers work to construct 
the Rhine Ordnance Barracks Army Medical Center in Germany, or 
ROBMC, concerns me and warrants additional oversight.
    I led a congressional delegation to this site in November 
of 2018; it consisted of five bipartisan members of Congress, 
three of whom sit on this committee, and what we found was 
alarming. For background, the ROBMC is a new hospital being 
constructed in Kaiserslautern, Germany, that will serve injured 
troops from AFRICOM [U.S. Africa Command], European, and 
Central Commands. It is located less than 2 miles from the 
flight line at Ramstein Air Base and will be the most 
strategically important military hospital outside of the 
continental United States.
    It will cost American taxpayers more than $1 billion and is 
an excellent investment for our American heroes.
    Congress fully understands the strategic importance of this 
hospital, but also recognizes its vulnerabilities. And one of 
the main vulnerabilities is its potential reliance on Russian-
sourced natural gas.
    According to the Energy Information Administration, Germany 
imported 40 percent of its natural gas supplies from Russia in 
2015. And this percentage has only increased since. Just last 
year, Germany bought more natural gas from Gazprom, Russia's 
state-owned gas company, than any other nation. Considering 
Russia's willingness to use its energy export as a political 
tool in the past, or as I would like say, weaponize energy, we 
need to ensure that our military installations are not subject 
to Russian interference.
    As a result of Germany's increased reliance on Russian 
natural gas, Congress and specifically this committee included 
language in both the fiscal year 2018 and 2019's National 
Defense Authorization Acts that limits Russia's influence over 
our military bases in Europe.
    The fiscal year 2018 NDAA called on the Department of 
Defense to limit the use of Russian sourced energy at military 
facilities in Europe as much as possible.
    The fiscal year 2019 NDAA took these concerns a step 
further and specifically cited the ROBMC and its energy 
supplies. It called for the medical center to be fueled using a 
mixed-fuel source that is domestically sourced when possible 
and that limits the use of Russian gas. The mixed-fuel source 
is particularly important as it ensures energy security through 
the diversification of fuel sources.
    The Army Corps is working in direct violation of these 
laws. It is planning the construction of an onsite co-
generation plant that will only use natural gas to produce the 
hospital's electricity and hot water backups. This is 
contradictory to congressional intent and an illogical costly 
path forward. The Army Corps insists on moving forward with 
this single-source plant despite Congress' previous actions 
calling for a mixed-fuel energy source.
    It is also an illogical approach to ensuring energy 
security for the hospital. The Army Corps is planning on using 
Russian-sourced natural gas as a redundancy for disruption in 
Europe's natural gas supply. These disruptions, however, are 
most likely to be caused by Russia's willingness to shut off 
gas supplies to Western Europe. This is an irrational approach 
to energy security and poses a major threat to the American 
troops serving in the area, three areas of responsibility that 
the hospital will serve.
    And I respectfully request the committee's consideration 
including language in the National Defense Authorization Act 
that prohibits the authorization of funds for the construction 
of the ROBMC's onsite co-generation plant; let me be clear, not 
the rest of hospital.
    Now when my son was wounded in Iraq that was one of the 
three places that he got great care and surgery. I have a lot 
of respect for that hospital. And the new hospital will be 
amazing with the short commute from the Air Force strip.
    But I just would ask that again, language to prohibit the 
authorization of funds for the construction of ROBMC's onsite 
co-generation plant until the U.S. Army Corps of Engineers can 
certify that it is in compliance with U.S. statute.
    Thank you again for the opportunity to be here today, and I 
really look forward to working with you as this process moves 
forward.
    [The prepared statement of Mr. Thompson can be found in the 
Appendix on page 33.]
    Chairman Smith. Thank you. Mr. Rose.

   STATEMENT OF HON. MAX ROSE, A REPRESENTATIVE FROM NEW YORK

    Mr. Rose. Chairman Smith, Ranking Member Thornberry, thank 
you so much for giving me the opportunity to give this 
testimony today and thank you for your leadership.
    I want to talk to you today about an issue that we are 
encountering in my district, Staten Island, South Brooklyn, New 
York City.
    Today, and you all might not be aware of this, the BAH 
[Basic Allowance for Housing] for the GI Bill on Staten Island 
is significantly lower than the rest of New York City. And the 
reason for that is because Staten Island is not counted as a 
part of New York City when the BAH is calculated. So today, the 
monthly BAH is $600 less than the other four boroughs. That 
goes to $7,200 per year and it has been up to $1,000 less per 
month.
    It makes veterans on Staten Island feel like we don't care. 
It makes them feel like we are there getting ignored or ripped 
off, and you all can fix it.
    From your perspective this is tiny stuff. And we really ask 
in this NDAA that you include Staten Island as a part of New 
York City in terms of the calculation of the BAH.
    And I want to go down for the facts as to why this is so 
ridiculous. Today, Staten Island has the highest percentage of 
vets as compared to any other borough. In fact, compared to 
Manhattan and Queens, it is double the number on a percentage 
basis.
    Our median rents are very similar to the rest of New York 
City, and nonetheless, though, we have a BAH that is $600 less. 
The median household income is right in the middle for New York 
City, and to repeat, our BAH is $600 less and calculated as if 
we are not part of New York City. By all other government 
metrics, New York City is counted as a five-borough element.
    Every other time the government is thinking about New York 
City, it is five boroughs, but for some reason for the BAH, 
four boroughs plus Staten Island. Again, this makes no sense 
and we are just inflicting pain on people.
    And lastly, to really, and this is the icing on the cake. 
When the CONUS COLA [continental United States cost of living 
allowance] is determined, we have the highest, Staten Island 
has the highest one for all the five boroughs and one of the 
highest in the nation. If I were to tell you, highest COLA 
lowest BAH in the city, you would think that was crazy. You 
would think that was insane. And you can fix it.
    People come here asking for the earth, the world, the moon, 
the stars, everything. I am not today. I am just asking for you 
to be fair as it pertains to Staten Island. But it is not just 
the veterans. This is our economy as well. Remember, BAH is 
based off where you go to school, not where you live.
    So Staten Island is so hospitable, so wonderful to vets, 
they are moving to Staten Island at times but going to school 
in other places. They will take the free ferry to Manhattan 
because it could mean upwards of $1,000 extra per month for 
them. That is a massive hindrance to our local universities, 
and that hits our economy as well.
    And we are following the rules. We are just trying to do 
the right thing and DC right now is not treating us fairly.
    And so I come before you today, again, very thankful that 
you gave me this opportunity. And again, I ask you to equalize 
the BAH rates for Staten Island and the other four boroughs. 
Include us in the New York City calculations. It will be nice, 
simple, and most of all, it will be fair.
    Thank you again.
    [The prepared statement of Mr. Rose can be found in the 
Appendix on page 35.]
    Chairman Smith. Thank you very much. Mr. San Nicolas.

  STATEMENT OF HON. MICHAEL F.Q. SAN NICOLAS, A DELEGATE FROM 
                              GUAM

    Mr. San Nicolas. Chairman Smith, Ranking Member Thornberry, 
Subcommittee Chair Garamendi, and members of this distinguished 
committee, thank you for the chance to testify on my priorities 
for Guam and the Asia-Pacific region and development of the 
chairman's mark for the National Defense Authorization Act for 
Fiscal Year 2020.
    As the Federal Government continues its plan for 
realignment and building up its military presence in our 
territory and throughout the region, probable impacts to Guam's 
economy must be addressed. Guam recognizes its unique position 
and the key role it plays in our nation's defense, but the 
nation in turn must recognize its duty to ensure economic 
stability in the application of Federal laws.
    Small steps can be taken to address these concerns in the 
fiscal year 2020 NDAA. First, I ask the committee to expand the 
language from the fiscal year 2019 NDAA to allow foreign labor 
through the H-2B visa program for construction projects to 
include civilian projects.
    Recently, the approval rates for H-2B applications for 
civilian projects is close to zero percent, while military 
projects received very healthy approvals of H-2B labor. This 
alarming situation significantly increased the cost for 
building homes and delayed completion times for public 
infrastructure projects.
    Addressing the significant labor shortages will allow for 
stabilization of the island's economy and bring parity into 
civilian construction projects outside the fence.
    Additionally, with Guam receiving the highest per capita 
rate of tourism in the highly sensitive Asia-Pacific region, 
civilian projects are critical to soft power force projection, 
as the tourism experience on Guam is a direct showcase of 
American exceptionalism to the citizens of allies and potential 
adversaries.
    Second, I ask that language be included that would extend 
by at least an additional year the prohibition of using the 
former ship repair facility property at Naval Base Guam for any 
other purpose than depot level ship repair. This language was 
included in the fiscal year 2019 NDAA.
    I am concerned that the Navy continues to send Military 
Sealift Command ships to foreign shipyards in direct 
contravention of the intent behind 10 U.S.C. 8680, which 
requires these ships to be repaired in U.S. shipyards except 
for voyage and emergent repairs.
    I ask the committee to include language that requires U.S.-
flag vessels serving the U.S. Armed Forces be repaired and 
maintained in ports within U.S. jurisdictions.
    Allowing our military ships to be maintained and serviced 
in foreign jurisdictions when we have local jurisdictions that 
can provide the work is counter to and undermines our ability 
to protect our nation against threats in the Asia-Pacific 
region. Moreover, I am deeply concerned that the Navy continues 
to find reasons to reduce ship repair capability on Guam when 
their own report conducted by U.S. Pacific Fleet several years 
ago clearly showed a long-term cost savings to the Navy for 
maintaining such capability on Guam.
    Finally, I request that language be included to require any 
future DOD telecommunication services and infrastructure 
installation on Guam be limited to U.S.-owned firms unless the 
Secretary of Defense certifies that a foreign firm can meet the 
resiliency and security requirements necessary to serve a U.S. 
military installation.
    From recent experience of Huawei, ZTE, and others, it is 
apparent that some foreign countries have identified 
telecommunications infrastructure as a potential infiltration 
point and are seeking to exploit that through artificially low-
cost exploits. Beyond this, the Pacific Islands are susceptible 
to hurricanes and other natural disasters requiring a high 
level of resiliency that lowest cost bids may not achieve.
    In the Asia-Pacific region, U.S. military facilities enjoy 
a variety of missions from missile defense to rapid deployment 
and response. Foreign governments would be highly interested in 
the ability to monitor or even affect these missions. We must 
take steps necessary to protect our national security and 
interests.
    The Armed Services Committee has been a friend of and 
strong advocate for Guam's interest as our island plays a key 
role in our nation's primary defense against adversaries in 
Asia. I have appreciated this committee's longstanding efforts 
in reaffirming Guam's seat at the table and ensuring that 
Guam's concerns are not brushed aside.
    I want to thank you for your time and consideration of my 
testimony.
    [The prepared statement of Mr. San Nicolas can be found in 
the Appendix on page 37.]
    Chairman Smith. Thank you.
    I have two questions, actually.
    Mr. Rose, first of all, and forgive my ignorance here, I do 
not know if that is our committee's jurisdiction on the GI 
Bill. Now, we do things outside of our jurisdiction all the 
time, but it is conceivably and since we have the chairman of 
the Veterans Affairs Committee with us, it is conceivably in 
his jurisdiction.
    But we can work together to make that happen and do it in 
our bill. But I just want to be clear on that.
    Mr. Rose. I am on the VA Committee as well. Originally we 
thought that was the case, but actually the GI Bill's BAH is 
based off DOD calculations.
    Chairman Smith. Okay. Just within our bill.
    And the other challenge there would be whether or not 
making that change carries with it a mandatory score which 
basically we have to find the money for that, so that is 
unfortunate.
    I mean I completely agree with your argument. There is no 
reason that it should be separate. But once it is separate, to 
fix it you have to come up with the money to fix it. So we will 
have to look at different ways to do that.
    So if you could make sure and work with the staff on if, is 
it mandatory; if it is not mandatory it is a hell of a lot 
easier to work out.
    Mr. Rose. Absolutely.
    Chairman Smith. Yes, but I completely agree with your 
assessment on that.
    Mr. Rose. Thank you for your consideration, Chairman.
    Chairman Smith. Thank you.
    And Mr. Thompson, just so I am clear the current plan of 
the hospital is to rely on Russian natural gas. And you want us 
to prohibit them from, you talked about the onsite--
    Mr. Thompson. Chairman, we are constructing right now a new 
medical center that is approximately just 2 miles from the 
landing strip on Ramstein. It is a great concept. When we were 
there and led a CODEL [congressional delegation] there, three 
of your members joined me. I mean, they were just clearing the 
site at that point.
    Chairman Smith. No, I am familiar with the project.
    Mr. Thompson. Yes, what we do today is all of that 
electricity, hot water, everything is purchased through the 
city of Kaiserslautern.
    Chairman Smith. And they get it from the Russians?
    Mr. Thompson. No. Kaiserslautern use multi-fuel source. 
They use biomass. They use wind.
    Chairman Smith. Sorry, I am just trying to get down to a 
very specific point. You want us to prohibit them from doing 
what?
    Mr. Thompson. The Corps of Engineers is moving away from 
what we have always done and they are building a co-generation 
plant. They have plans to build a power generation plant on the 
site of the hospital, which would be solely and completely 
relying on natural gas.
    Right now, part of the trust that we have with the 
community, the city of Kaiserslautern, that area is that 
partnership with the type of heating source that we use at 
Ramstein, it is used all throughout that region and it is the 
Corps of Engineers that have chosen to veer from that.
    Chairman Smith. What source of energy would we be using 
instead of natural gas?
    Mr. Thompson. That, quite frankly, if they choose to 
continue to what I think is an excessive and unnecessary cost 
of building their own generation plant which we have never done 
that. This would be the first time. That would be obviously up 
to the Corps of Engineers. Our statute that this committee has 
passed and has been incorporated in the NDAAs in the past just 
calls for multiple sources so that we are not dependent on 
Russia for their natural gas, because Russia has been known to 
weaponize energy.
    Chairman Smith. Yes. I got all of that.
    Mr. Thompson. And so there are two alternatives here. One, 
ultimately, I mean, if I had the opportunity to have a 
preference would be to continue the relationship we have with 
the city of Kaiserslautern that uses multiple sources for 
generating power, electricity, hot water.
    Chairman Smith. Right, understood. I mean, obviously we 
would rather not be reliant upon Russian natural gas. It 
depends on what we are then going to be reliant on if we don't 
allow them to go that route.
    Mr. Thompson. That is correct. And the past two National 
Defense Authorizations have addressed this issue, but just 
clearly, the Army Corps of Engineers is ignoring Congress in 
this situation with proceeding with, quite frankly, building a 
plant at significant cost, and then the cost of operating that 
plant is going to require additional fulltime employees to 
operate.
    And the part that I didn't address is it continues to break 
down that trust that we have within those German communities 
there. And I think that you will find with Ramstein that I am 
hard pressed to think anyone in there hasn't been well served 
by that partnership with the city of Kaiserslautern where all 
this is generated today.
    Chairman Smith. Absolutely. I have been to the current 
hospital at Landstuhl many, many times. It is an outstanding 
facility.
    Mr. Thompson. It certainly is.
    Chairman Smith. And incredibly important. And they do 
amazing work there. I was in Iraq and visited a wounded 
soldier, and then by the time I got to Landstuhl, he was 
already there being treated. So it is an incredibly important 
part.
    Mr. Thompson. It will be an easier trip now that you are 
coming down off that top of that hill. It would just be 2 miles 
from the point where that transport plane will be landing at 
Ramstein.
    Chairman Smith. Absolutely, thank you. That is all I have.
    Anybody else?
    Mr. Thornberry. Mr. Chairman, I just want to thank this 
panel and our previous panel. Some of the issues we have heard 
about today I am familiar with, some not so much. But that is 
the importance of having members bring their priorities to our 
attention, and I know that you and I will work together with 
our staff to look at each of the issues that the members have 
brought, so I appreciate it.
    Chairman Smith. Absolutely, that is a commitment on both my 
part and the ranking member's part. We represent the whole 
caucus. And we understand, certainly in the districts that have 
been represented here, that our national security needs are met 
by every district in this country and every member has an 
interest, and we want to make sure that we address those 
interests as best as we can on the committee.
    So, appreciate you all being here.
    Any further questions? Hearing none, thank you very much. 
We are adjourned.
    [Whereupon, at 09:40 a.m., the committee was adjourned.]

     
=======================================================================

                            A P P E N D I X

       
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 3, 2019

=======================================================================

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
         
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             April 3, 2019

=======================================================================

    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                               [all]
</pre></body></html>
